  OFFICE OF THE INSPECTOR GENERAL




           EVALUATION OF THE
U.S. INTERNATIONAL TRADE COMMISSION’S
FISCAL YEAR 2006 INFORMATION SECURITY
         PROGRAM AND PRACTICES


            AUDIT REPORT
             OIG-AR-03-06




                               September 29, 2006
      UNITED STATES INTERNATIONAL TRADE COMMISSION

                                WASHINGTON, DC 20436

September 29, 2006                                                             IG-DD-022

MEMORANDUM

TO:    THE COMMISSION

We hereby submit Audit Report OIG-AR-03-06, Evaluation of the U.S. International
Trade Commission’s Fiscal Year 2006 Information Security Program and Practices. We
conducted an independent evaluation of the Commission’s information security program
and practices to determine if the Commission: (1) implemented appropriate actions to
address recommendations made in OIG-AR-04-05 (September 27, 2005); and (2) met
Federal Information Security Management Act criteria.

We found the Commission made progress in strengthening its information technology
(IT) security program during the 2006 fiscal year (FY). The Commission fully
implemented 10 of the 23 recommendations from OIG-AR-04-05, and 9 remained open.
We did not perform audit work on the remaining four recommendations because the
Commission was in the process of installing a new firewall and intrusion detection
system. We plan to perform audit follow-up work on these recommendations in October
2006. Therefore, we are not able to close these issues at this time.

In addition to the nine open recommendations from OIG-AR-04-05, this report identifies
three additional weaknesses. These weaknesses relate to use of wireless technologies,
certification and accreditation of major systems, and the system change control process.

We made three recommendations to improve the Commission’s IT security. The
Commission agreed with our recommendations and presented actions to address them.

Due to the sensitive nature of the information contained in our report, we have limited
distribution of the report.


                                                     Jean Smith
                                                     Assistant Inspector General for Audit

CC:    Office Directors
       Cotton & Company LLP
